                               INDEPENDENT EVALUATION OF

                        SBA’S INFORMATION SECURITY PROGRAM

                                      REPORT NUMBER 5-02

                                          OCTOBER 7, 2004




This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.
                    U.S. SMALL BUSINESS ADMINISTRATION
                        OFFICE OF INSPECTOR GENERAL
                            WASHINGTON, D.C. 20416

                                                              ADVISORY MEMORANDUM
                                                                     REPORT
                                                              Issue Date: October 7, 2004
                                                              Number: 5-02

To:            Hector V. Barreto
               Administrator

               Stephen D. Galvan
               Chief Operating Officer / Chief Information Officer

                      /s/
From:          Robert G. Seabrooks
               Assistant Inspector General for Audit

Subject:       Independent Evaluation of SBA’s Information Security Program

        The Federal Information Security Management Act (FISMA) requires the Office
of Inspector General (OIG) to perform an independent evaluation of the Small Business
Administration's (SBA) information security program. This report presents the results of
that evaluation in accordance with specific FISMA reporting instructions issued by the
Office of Management and Budget (OMB).

                       OBJECTIVES, SCOPE AND METHODOLOGY

        The objective of our review was to evaluate SBA’s information security program
in accordance with FISMA reporting requirements specified in OMB Memorandum
M-04-25. We performed an independent evaluation of SBA’s information security
program to reach conclusions about the FISMA reporting areas. In making our
evaluation, we considered prior audits related to SBA’s information systems computer
security program issued by our office.

        Our assessment covered the 37 high-priority systems identified by SBA and its
characterization of the susceptibility of those systems to unauthorized access as of
September 15, 2004. OMB Memorandum M-04-25 identified that we were to report
significant deficiencies in SBA’s overall information systems security program or
management structure. A significant deficiency under FISMA is a weakness in an
agency’s overall information systems security program or management control structure,
or within one or more information systems, that significantly restricts the capability of the
agency to carry out its mission or compromises the security of its information,
information systems, personnel, or other resources, operations, or assets. A significant
deficiency is to be reported by the Agency as a material weakness under the Federal
Managers Financial Integrity Act (FMFIA) report.

        We interviewed SBA officials and reviewed documentation on SBA’s
information security program. Our evaluation was performed at SBA’s headquarters
office in Washington, D.C. from April 2004 through October 2004.


                              OVERALL EVALUATION

        Generally for FY 2004, the SBA’s computer security program has shown mixed
results. SBA achieved a major milestone in certifying and accrediting all of its major
systems within the past fiscal year. However, SBA has not been able to sufficiently
address the 248 open system risk assessment vulnerabilities and open OIG audit findings
including 118 open risk assessment vulnerabilities and 14 OIG audit findings which have
exceeded their estimated target date for completion to correct the issues identified.

       The OIG identified five (5) significant deficiencies in SBA’s computer security
program. Moreover, these deficiencies were previously identified in 11 OIG
recommendations, which if adopted in full, would address related security risks and
exposures.


Finding 1: Computer Security Capital Planning is not FISMA Compliant

        SBA does not have a capital planning process that is compliant with FISMA
requirements from either a budgeting or an actual expenditure tracking capability. This
occurred because SBA’s capital planning process does not tie to or reconcile with the
SBA Plan of Actions & Milestones (POA&M), the SBA Exhibit 53, and SBA Capital
Asset Plans. Additionally, there is no expenditure tracking of security related costs in
SBA’s accounting system. As a result, SBA cannot be assured that those funds identified
in the POA&M, requested in the Capital Asset Plans and Exhibit 53 for remediating
security vulnerabilities is actually appropriated and spent for correcting security
vulnerabilities in SBA systems.

        According to OMB Memorandum 04-25, the POA&M identifies the resources
required to accomplish the elements of the plan, any milestones in meeting the task, and
scheduled completion dates for the milestones. The purpose of a POA&M is to assist
agencies in identifying, assessing, prioritizing, and monitoring the progress of corrective
efforts for security weaknesses found in programs and systems. The Agency POA&M
must be tied to the agency’s budget submission through the unique project identifier of a
system. This links the security costs for a system with the security performance of a
system.

       We reviewed the SBA POA&M as of 9/15/04 with the separate SBA Capital
Asset Plans, and Exhibit 53. We could not reconcile or tie either the individual system


                                             3
POA&M to the SBA Capital Asset Plans and SBA Exhibit 53 for specific relevant
systems. Additionally, we could not reconcile or tie the “steady-state” SBA system
POA&M’s with the “meta” SBA Capital Asset Plan and Exhibit 53 for all SBA systems
that are not in a development status. Finally, there was no specific project cost
capabilities set-up within SBA’s accounting system to track specific security
expenditures relating to SBA systems so that their security control costs would be
integrated into the life-cycle of SBA systems.

The SBA Joint Accounting and Administrative Management System (JAAMS) are
reported here as an example:

                  POA&M              Exhibit 53         Capital Asset      Amount spent
                  Amount Spent       (5% of cost        Plan – 300B        as recorded in
                  or Planned for     allocation)        (5% of cost        SBA’s
                  Security                              allocation)        accounting
                                                                           system
FY2004            $0                 $64,150            $64,150            $0
FY2005            $56,000            $41,300            $41,250

Recommendations: We recommend that the Chief Operating Officer in conjunction
with the Office of Chief Financial Officer:

1.A.   Ensure that system and program level SBA Plan of Action & Milestones
       (POA&M) tie or reconcile resources needed to correct system vulnerabilities to
       the SBA Capital Asset Plans (300B) and Exhibit 53.

1.B    Create costing or charge-back capabilities within SBA’s accounting system to
       track security related expenditures for SBA’s system and program level Plans of
       Actions and Milestones (POA&M).


                                          ***
       The OIG FISMA report is attached in the format prescribed and utilizing a
template file which was provided by OMB.

        The findings included in this report are the conclusions of the Auditing Division.
The findings and recommendations are subject to review and implementation of
corrective action by your office following the existing Agency procedures for audit
follow-up and resolution.

        Please provide us your management decision for each recommendation within 30
days. Your management decisions should be recorded on the attached SBA Forms 1824,
Recommendation Action Sheet,” and show either your proposed corrective action or
target date for completion, or explanation of your disagreement with our
recommendations.


                                             4
       Should you or your staff have any questions, please contact Jeffrey R. Brindle,
Director, IT and Financial Management Group at (202) 205-7490.

Attachment




                                            5
Withheld from public release: 17 pages of technical information.

Rationale: FOIA Exemption 2




                                           6
                                                                                                    ATTACHMENT A



                                         REPORT DISTRIBUTION


Recipient                                                                                                 No. of Copies

Office of the Chief Financial Officer
Attention: Jeffrey Brown ........................................................................................1

General Counsel.......................................................................................................3

Deputy Chief Information Officer ...........................................................................1

Chief Financial Officer ............................................................................................1

U.S. Government Accountability Office .................................................................1
